                    March 27, 2000

                    JAMES C. TOLBERT
                    MANAGER, STAMP SERVICES

                    SUBJECT: Grand Canyon Stamp – Review of Production
                             Internal Controls
                             (Report Number RG-LA-00-002)


                    The Office of Inspector General (OIG) conducted a review
                    of the Stamp Services’ stamp production controls (Project
                    Number 00RR013RG000). This review was conducted in
                    response to a second error that occurred on the Grand
                    Canyon stamp. This advisory letter report summarizes the
                    results of our review.

Results in Brief	   We concluded that the internal controls established by the
                    Stamp Services Division were insufficient to prevent the
                    reversal of photo images used in the designing process.
                    Prior to our review, Stamp Services Division conducted a
                    self-assessment of the stamp production process and
                    determined that improvements were needed. As a result,
                    Stamp Services’ management implemented additional
                    controls that should prevent the reversal of photo images
                    used in future stamp designs. Management is in the
                    process of preparing written updates to their current policies
                    and procedures.

Background 	        In May 1999 Stamp Services discovered a typographic error
                    that occurred during the production of the 60-cent
                    international commemorative Grand Canyon stamp. This
                    resulted in the destruction of 100 million stamps, costing
                    Postal Service approximately $500,000. As a result the OIG
                    conducted a review and disclosed that existing control
                    processes should have provided reasonable assurance
                    that potential errors would be timely prevented and
                    detected. However, in this instance the Postal Service did
                    not adhere to their established control processes.




                             Restricted Information
Stamp Production Internal Controls                                               RG-LA-00-002




                              We issued a report, Review of the Printing Error in Grand
                              Canyon Stamp, to the manager of Stamp Services
                              presenting the results of our review. Management agreed
                              to adhere to their existing procedures in the future.

                              After the stamp was reprinted, Stamp Services staff was
                              alerted to a second error during a dedication ceremony of
                              the International commemorative Grand Canyon stamp.
                              This error consisted of a reversed image of the original
                              photo.

Objectives, Scope             The objectives of this review were to determine the cause
and Methodology               for the error and if there was a need to enhance controls to
                              avoid this type of error in the future. To accomplish these
                              objectives we interviewed key personnel in the Stamp
                              Service Division and reviewed photo images of the Grand
                              Canyon stamp and the internal control procedures for
                              producing stamp images.

Observations                  A reversed image was produced on the Grand Canyon
                              Stamp. This reversed image occurred because the controls
                              in place were not sufficient to detect reversed images on the
                              stamps. After several discussions with members of the
                              philatelic community, Stamp Service officials decided that
                              the error was not significant and did not warrant destroying
                              and reissuing the stamp. However, Stamp Services
                              reevaluated their current stamp control process and made
                              necessary adjustments to avoid future errors.

                              During the Stamp Services self-assessment they noted that
                              the stamp production process lacked a control to verify
                              when a transparency of the photo had been reversed. To
                              correct this problem, Stamp Services management added
                              an additional verification step to ensure that future images
                              would not be reversed. This consisted of working with
                              current contractors to provide an independent verification as
                              to the accuracy of the images used in the initial and final
                              stages of the designing process.

                              Stamp Services’ management is currently updating their
                              written policies and procedures to reflect these changes.
                              Management provided evidence of the effectiveness of this
                              new process, showing us two additional photo images that
                              were reversed, but were detected by the new procedures


                                                 2
                                       Restricted Information
Stamp Production Internal Controls                                                 RG-LA-00-002



                              and corrected. Therefore, we do not believe further control

                              enhancements are needed to avoid this type of error in the 

                              future.


                              Since this report does not offer any suggestions, no formal

                              reply is required. However, if you have any comments to 

                              this report, please forward them to this office no later than 

                              April 17, 2000. 


                              If you have any questions concerning our review, please 

                              contact              ,              me at (703) 248-2300. 



                              /SIGNED/ 

                              Sylvia L. Owens 

                              Assistant Inspector General

                               For Revenue Cost Containment

                              cc: John R. Gunnels




                                                 3
                                       Restricted Information
Stamp Production Internal Controls                            RG-LA-00-002




Major Contributors




                                               4
                                     Restricted Information
